Direct Dial: 919.981.4000
rvanarnam@williamsmullen.com

March 23, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Request for extension of time to file response to petition
Lenwood Hamilton v. Lester Speight, et al.
S. Ct. No. 20-1123

Dear Mr. Harris:
We write on behalf of Respondents in the above-referenced case. Petitioner filed its
petition for a writ of certiorari (“Petition”) on February 12, 2021. On February 25, 2021 and
February 26, 2021, respectively, Respondents filed waivers indicating they were waiving their
right to file a response to the Petition. In your March 17, 2021 letter, you requested on behalf of
the Court that Respondents file a response.
According to your March 17, 2021 letter and the online docket, a response is currently
due on April 16, 2021. Pursuant to Rule 30.4, Respondents respectfully request that the time
for filing a response be extended by 30 days, to and including May 16, 2021.
This is Respondents first request for an extension of time to file a response. Good
cause exists for the requested extension. Respondent Epic Games, Inc., on the one hand, and
respondents Microsoft, Inc., Microsoft Studios, The Coalition, and Lester Speight on the other,
each are represented by different counsel, and significant coordination between counsel will be
required to prepare a response to the Petition that is most helpful to the Court. Such
coordination will require review by multiple attorneys and in-house counsel at both Epic and
Microsoft, which will also require additional time to complete. Lastly, access to office for certain
counsel for Respondents has been restricted due to COVID-19, which has and will further
complicate preparation of a fulsome response. We also note that Petitioner Hamilton made use
of the additional sixty days allotted by this Court in its March 19, 2020 order responding to
COVID-19 and filed his brief 148 days after judgment was entered in the circuit court. Under
these circumstances, the thirty-day extension requested by Respondents is fair and reasonable.
Accordingly, Respondents respectfully request that the time for filing a response to the
petition for writ of certiorari be extended by 30 days, to and including May 16, 2021. Counsel for
petitioner, Tillman J. Breckenridge, has informed us by email that petitioner does not object to
this request.
Sincerely,
/s/ Robert C. Van Arnam
Robert C. Van Arnam
Counsel for Epic Games, Inc.

301 Fayetteville Street, Suite 1700 (27601) P.O. Box 1000 Raleigh, NC 27602 T 919.981.4000 F 919.981.4300
williamsmullen.com | A Professional Corporation

Hon. Scott S. Harris
March 23, 2021
Page 2
/s/ Elizabeth A. McNamara
Elizabeth A. McNamara
Counsel for Lester Speight; Microsoft, Inc.;
Microsoft Studios; The Coalition
cc:

Tillman J. Breckenridge, Counsel of Record for Petitioner
Lawrence S. Ebner, Counsel of Record for Atlantic Legal Foundation

